           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   ANNUAL REPRESENTATIVE PAYEE
 ACCOUNTING REPORT NON-RESPONDERS


      March 2011   A-06-10-11069




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      March 28, 2011                                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Annual Representative Payee Accounting Report Non-responders (A-06-10-11069)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA)
           obtained required benefit use information from representative payees who failed to
           respond to both initial and follow-up requests for annual Representative Payee Reports
           (RPR).

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because of
           their youth or mental and/or physical impairments. Congress granted SSA the authority
           to appoint representative payees to receive and manage these beneficiaries’ payments
           from the Old-Age, Survivors and Disability Insurance (OASDI) and Supplemental
           Security Income (SSI) programs.1

           Representative payees are responsible for managing benefits in the best interest of the
           beneficiary 2 and for keeping records and reporting how they spend benefits. 3 Most
           representative payees are required to complete an annual RPR. 4 SSA uses these
           reports to monitor how representative payees spend and/or save benefits on the
           beneficiary’s behalf and identify situations where representative payment may no longer
           be appropriate or the payee may no longer be suitable. SSA mails RPRs to



           1
               Social Security Act §§ 205(j) and 1631(a)(2), 42 U.S.C. §§ 405(j) and 1383(a)(2).
           2
            20 C.F.R. §§ 404.2035 and 416.635. In this report, we use the term “benefits” to refer to OASDI
           benefits and SSI payments. Likewise, we use the term “beneficiaries” to refer to OASDI beneficiaries and
           SSI recipients.
           3
               20 C.F.R. §§ 404.2065 and 416.665.
           4
            Pursuant to 20 C.F.R. §§ 404.2065 and 416.665, certain State institutions that participate in a separate
           onsite review program are excluded from this requirement.
Page 2 - The Commissioner


representative payees and requests the reports be completed and returned via regular
mail or online. If a representative payee fails to complete and return the report, SSA
mails a follow-up request.

In cases where representative payees do not respond to initial or follow-up RPR
requests (non-responders), the Electronic Representative Payee Accounting (eRPA)
system sends an alert to the servicing field office. Field office personnel are responsible
for contacting the representative payees and ensuring they provide benefit use
information. Field office staff should call the payee to determine why they did not return
a completed accounting form. Field office staff can request the payee submit the form,
mail an additional RPR request, or request the payee provide required information via a
face-to-face interview. Once obtained, field office staff should review the payee’s
responses and resolve any unacceptable responses before approving the accounting
report and clearing the alert. If the field office is unable to obtain a response from a
representative payee, SSA should consider a change of payee.

Data obtained from SSA’s eRPA system indicated that from January 2007 through
December 2009, SSA mailed approximately 17.6 million initial requests for RPRs. In
approximately 2.1 million cases, representative payees failed to respond to both initial
and follow-up requests for RPRs. 5 See Appendix B for information on the scope and
methodology of this review.


                             Annual Representative Payee Accounting Reports
                                           (2007 through 2009)

                 7,000,000

                 6,000,000
                                                                              Initial Mailings
                 5,000,000

                 4,000,000

                 3,000,000

                 2,000,000                                                    Non-responders
                 1,000,000

                        0
                                   2007           2008           2009 *


                 ∗    The 2009 Non-responders column includes reporting periods
                      from January through August 2009.




5
  During our ongoing audit, Emerge Incorporated, an Organizational Representative Payee for the Social
Security Administration (A-13-10-21087), we identified instances where SSA did not mail RPR requests
for all beneficiaries assigned to a payee. We have additional work planned to determine the full extent of
RPR requests that are not issued.
Page 3 - The Commissioner


RESULTS OF REVIEW
SSA expended considerable effort to obtain required benefit use information from RPR
non-responders. We identified approximately 2.1 million instances from January 2007
through August 2009 where representative payees failed to respond to both initial and
follow-up requests for RPRs. In almost every case reviewed, SSA field office
employees initiated contact with the representative payees and ultimately obtained the
required information. As indicated in the following examples, SSA employees’ efforts to
obtain benefit use information were labor-intensive; required multiple mailings,
telephone calls, and/or face-to-face meetings; and, in some instances, took several
months to complete.

•     On September 19, 2009, SSA assigned an RPR non-responder case to a field office,
      which sent a third mailing to the representative payee requesting an RPR for the
      beneficiary. The representative payee did not respond. A field office employee
      unsuccessfully attempted to contact the representative payee via telephone. SSA
      issued a fourth mailing requesting that the representative payee call or visit the field
      office. The representative payee responded to the fourth mailing by calling the field
      office and scheduling an appointment. SSA approved the RPR on July 21, 2010.
      Because of the representative payee’s non-cooperation, this case took SSA field
      office staff over 10 months to resolve.

•     On October 5, 2009, SSA assigned an RPR non-responder case to a field office,
      which sent the representative payee a third mailing requesting an RPR for the
      beneficiary. After receiving no response to its request for information, SSA
      suspended the beneficiary’s payments on March 17, 2010 and deemed the
      representative payee non-cooperative. In April 2010, the representative payee
      contacted the Agency and agreed to complete the RPR. On April 29, 2010, SSA
      approved the RPR. Because of the representative payee’s non-cooperation, this
      case took SSA field office staff over 6 months to resolve.

    Action Taken in     We reviewed available records for 100 randomly selected
    Non-responder       beneficiaries whose representative payees failed to respond to
    Cases               initial and follow-up RPR requests. SSA records indicated that
                        after considerable effort, SSA field office staff ultimately obtained
required benefit use information for 99 beneficiaries, and no further action was
necessary. 6 In the other case, a representative payee, who was the custodial parent of
a child beneficiary, did not provide accounting information for any of the 3 years
reviewed. We found no indication that SSA took any action, beyond the first and
second RPR mailings sent each year, to obtain RPR information from the representative
payee.




6
    We did not verify the accuracy of any representative payee provided information.
Page 4 - The Commissioner


    Non-responders with            SSA data indicated that about 85 percent of RPR
    Custody of the                 non-responders had custody of their respective
    Beneficiaries They Serve       beneficiaries. 7 In these instances, because the
                                   representative payees and beneficiaries likely shared
household expenses, we believe a high probability existed that payees could provide
RPR information indicating they used SSA payments to meet beneficiary needs. In a
recent audit, we reported that, given the projected growth of the aged beneficiary
population, SSA will need to devote significantly more resources to its representative
payment program. 8 As such, we plan to undertake additional work to evaluate the
effectiveness of the overall RPR process and determine the feasibility of implementing a
risk-based approach to representative payee oversight.

CONCLUSION
During our review period, SSA was required to take action to obtain information from
approximately 2.1 million RPR non-responders. SSA expended considerable effort to
obtain this information from representative payees who failed to respond to both initial
and follow-up requests for RPRs. While we commend the Agency on its efforts to
obtain information from RPR non-responders, we are concerned about the amount of
resources SSA must expend to do so. Hence, we will be performing additional reviews
of SSA’s representative payee oversight.

AGENCY COMMENTS
SSA stated that in December 2009, it transmitted a draft bill to Congress that included a
provision that would eliminate the requirement for parents with custody of their children
and spouses living with a beneficiary to provide annual accountings of how they spend
the benefits of their children and spouses. Such a change recognizes that the annual
representative accounting process is costly and requires a high level of administrative
effort. This proposed change would have a significant impact in reducing SSA’s non-
responder workload. SSA’s comments are included in Appendix C.




                                               Patrick P. O’Carroll, Jr.




7
  We identified representative payee custody codes that appeared on SSA’s records pertaining to
517,505 beneficiaries whose representative payees failed to respond to both initial and subsequent RPR
mailings related to accounting periods ended January 2007 through August 2009. SSA’s records for
438,880 (84.8 percent) of these beneficiaries included a “PYE” custody code, which indicated the
representative payee had custody of the beneficiary.
8
 SSA, Office of the Inspector General, Aged Beneficiaries in Need of Representative Payees
(A-09-09-29002), April 2010.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
eRPA     Electronic Representative Payee Accounting
OASDI    Old-Age, Survivors and Disability Insurance
RPR      Representative Payee Report
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal laws and regulations and Social Security
    Administration (SSA) policies and procedures.

•   Reviewed prior Office of the Inspector General reports.

•   Obtained April 2010 data from SSA’s Electronic Representative Payee Accounting
    system that identified beneficiaries whose representative payees did not respond to
    initial or follow-up mailings of the annual Representative Payee Reports (RPR) for
    accounting periods ended January 2007 through August 2009. We selected the
    August 31, 2009 end date to allow (1) representative payees approximately
    7 months to respond to the first and second RPR mailings, and (2) adequate time for
    SSA field office staff to contact representative payees and ensure the RPRs were
    completed. In total, our population consisted of approximately 2.1 million RPRs for
    about 1.6 million beneficiaries. The data indicated that representative payees for

     1,167,177 beneficiaries failed to submit required annual RPRs in 1 of 3 years
      included in our review,

     352,204 beneficiaries failed to submit required annual RPRs in 2 of 3 years
      included in our review, and

     75,584 beneficiaries failed to submit any of the 3 annual RPRs.

•   We randomly selected 50 of the 1,519,381 beneficiaries whose representative
    payees failed to submit required RPRs in 1 or 2 years included in our review and
    50 of the 75,584 beneficiaries whose representative payees failed to submit any of
    the 3 required annual RPRs. We reviewed available documentation to determine
    whether SSA ensured the sampled beneficiaries’ representative payees accounted
    for use of beneficiary funds.

We performed our audit between June and October 2010 in Dallas, Texas. We
determined that the data used for this audit were sufficiently reliable to meet our audit
objective. The entities audited were the Offices of the Deputy Commissioners for
Operations, and Budget, Finance and Management. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      March 8, 2011                                                            Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Annual Representative Payee Accounting Report
           Non-responders” (A-06-10-11069)--INFORMATION


           Thank you for the opportunity to review the draft report and for recognizing our efforts in the area
           of representative payee reporting. We offer one comment to your report in the attachment.

           Please let me know if I can be of further assistance. You may direct staff inquiries to
           Chris Molander at extension 57401.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“ANNUAL REPRESENTATIVE PAYEE ACCOUNTING REPORT NON-
RESPONDERS” (A-06-10-11069)

Thank you for the opportunity to review the subject report. We offer the following comment.


On page 4, immediately before “CONCLUSION,” we suggest you add the following paragraph:

In December 2009, the Social Security Administration transmitted a draft bill to Congress that
included a provision that would eliminate the requirement for parents with custody of their
children and spouses living with a beneficiary to provide annual accountings of how they spend
the benefits of their children and spouses. Such a change recognizes that the annual
representative accounting process is costly and requires a high level of administrative effort.
This proposed change would have a significant impact in reducing SSA’s non-responder
workload.




                                              C-2
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Teresa Williams, Senior Auditor

   Patrick Kennedy, Lead IT Specialist

   Michael Arbuco, IT Specialist

For additional copies of this report, please visit our Website at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-10-11069.
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
